Cardmember Agreement,
Disclosure Statement and
Security Agreement
This booklet describes important terms and conditions that apply to your credit card account.
We want to be clear in how we share this information with you, to help you stay in control and
make well-informed decisions about your account.

Contents of this Cardmember Agreement, Disclosure Statement and
Security Agreement
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.

Defining some common terms used in this document
How you may use the account and security interest
How we determine and apply account payments
How certain rates are calculated and may change
How we calculate interest charges and the balances subject to interest
How we determine certain account fees and additional information on certain transactions
When we may close or require immediate payment of your account
How account terms may change and certain rights
How to use your account without using your credit card
How cardmember benefits and reward programs work
How we communicate with you and share information with credit bureaus
Transferring your account and laws that govern your account with us
Scope of our agreement with you
Claims and Arbitration of disputes
Your billing rights as a cardmember
Liability for unauthorized use

1. Defining some common terms used in this document
This section explains what this document means when it uses common terms like “us,” “you” or
“agreement.” These detailed definitions help us avoid repeating long terms over and over again—
which helps make the document easier to read.
This Cardmember Agreement, Disclosure Statement and Security Agreement together with the
accompanying Summary of Credit Terms govern your account with MUFG Union Bank, N.A., and
are collectively referred to below as the “Agreement”. The Summary of Credit Terms provides
important information about annual percentage rates, specific types and amounts of finance
charges and fees that may be charged to your account under certain circumstances and other
important information about your account. Please read this Cardmember Agreement, Disclosure
Statement and Security Agreement, along with the Summary of Credit Terms, carefully and retain
both for future reference.
As used in this Agreement, the words “you” and “your” mean each person named on the
application for the account and anyone else who uses the account in any way. The terms “we”,
“us”, “our” and “MUFG Union Bank” mean MUFG Union Bank, N.A. Using or allowing someone else
to use your account means you accept the terms of the Agreement. This Agreement contains
our most current terms and supersedes earlier materials you may have received. (Please note:
although your account will generally have monthly billing cycles, your first billing cycle may

be more or less than one month. Except where your account
offers introductory rates or fees as indicated on the Summary
of Credit Terms, all credit terms, including minimum finance
charges, will apply in each billing cycle including the first billing
cycle. Introductory rates and fees will apply for the period stated
on the Summary of Credit Terms, after which the regular rates
and fees stated on the Summary of Credit Terms will apply.)
IF THERE IS A DISPUTE BETWEEN YOU AND MUFG UNION BANK
IT WILL BE RESOLVED THROUGH ARBITRATION. Refer to
Paragraph 14 below for additional information.
BALANCE CATEGORIES: We will keep track of the activity on
your account in different “Balance Categories”. Unless we tell
you otherwise, these are the Balance Categories we will use:
“Purchases” which will result from use of your card or your
account number to purchase goods and services;
“Cash Advances” which will result from cash advances
you request, use of checks or similar instruments (including
electronic form or otherwise) that we provide (unless we
tell you they will be treated differently), and Cash Equivalent
Transactions (as defined later in this Agreement);
“Overdraft Advances” which will result from an advance from
your account to cover an item or items that have overdrawn
your linked checking account;
“Balance Transfers” which will result from balance transfers that
you request by any means, including balance transfer checks or
similar instruments (including electronic form or otherwise); and
“Special Offers” which will result from use of your card or your
account number to take advantage of special, introductory or
promotional offers that we identify to you from time to time. Each
Special Offer may be considered a separate Balance Category.
2. How you may use the account and security interest
This section explains a few basic rules about how you and others
may use your account, your responsibility for the account, and
how we may limit your use of the account. It also details the
terms associated with the security interest and collateral.
ACCOUNT USE: You may use your card, your account number
or checks or similar instruments (including electronic form or
otherwise) that we send to you to make purchases and balance
transfers and to obtain cash advances. Each time you use
your account, you are representing that you intend, and have
the ability, to repay all amounts due on your account. You are
responsible for all charges made by anyone you allow to use
your account, even if they charge more than you intended. If
you ask us to issue a card to someone, you are responsible for
their charges until you return their card to us or until you notify us
that use of their card is no longer authorized, whichever occurs
first. We may consider charges made by your immediate family
as authorized by you and your responsibility. If unauthorized
use of your account occurs, you agree to cooperate with us

and law enforcement authorities in identifying the unauthorized
user. You are each jointly and severally liable for all amounts due
on this account regardless of which of you uses it or benefits
from that use.
OUR SECURITY INTEREST: Whether we have acquired or will
acquire a security interest in any funds, goods, or other collateral
in connection with your account is stated on the Summary of
Credit Terms. If your account is secured, you have provided
us with funds that will serve as collateral for your credit card
obligations to us. You have: (i) relinquished all possession and
control over the funds you have provided; and (ii) pledged,
assigned and granted to us a security interest in those funds, the
corresponding deposit, including subsequent add-on deposits,
if any, and any instrument that we may issue evidencing
that deposit (collectively, the “Collateral”). If you fail to pay or
otherwise default on your credit card obligations to us, we may:
(1) without advance notice, take any or all of that Collateral and
apply as payment towards your credit card obligations; and
(2) pursue other legal remedies. We may, at our discretion and
subject to credit approval, unsecure your account by returning
the Collateral to you. If we unsecure your account by returning
the Collateral to you, this section, and all other references to
the Collateral and our Security Interest in the Collateral in this
Agreement, will no longer be applicable to your Account.
CREDIT LIMIT/AUTHORIZATIONS: You agree (1) not to exceed
the credit limit we establish for you and (2) to immediately pay
any amount in excess of your credit limit. If your account is a
joint account, each of you may request credit limit increases
(unless you are less than twenty-one years of age and were
required by law to have a joint account, in which case, all joint
account owners must approve and assume joint liability for
any request for increase). We may raise or lower your credit
limit at our discretion and may restrict the amount of the
credit limit available for cash advances and balance transfers.
We will consider additional deposits to your Deposit Account
to be requests to increase your credit limit by the amount of
the deposit, rounded down to the nearest $50. We are not,
however, obligated to honor such requests. You may not use
your account for (and we may decline authorization for) any
illegal transaction. We may decline authorization for any Internet
gambling transaction. We may, in our discretion and to the
extent permitted by law, restrict or delay the availability of credit
to you for our risk management purposes and to protect you and
us against actual or potential fraud, unauthorized transactions,
or claims. We are not liable for declining authorization for any
particular transaction, regardless of our reason.
3. How we determine and apply account payments
This section explains your responsibility for making account
payments, how we determine the amounts you must pay and
how we apply payments to your account.

PAYMENTS:
(A) Promise to Pay: You promise to pay all amounts due on your
account. You agree to review your billing statements and
to notify us promptly of any errors (see “Your Billing Rights”
below). If you do not promptly notify us of a billing error, you
agree that your billing statement will be considered proof of
the amount you are obligated to pay. You may pay all or a
part of the balance on your account at any time. However,
you must pay at least the minimum payment shown on
your billing statement by the due date. You agree to follow
the requirements for payments that we set forth on your
billing statement from time to time, including requirements
that payments are made in United States Dollars and that
checks are drawn on a United States bank. If we choose
to accept a payment that is not in United States Dollars or
not drawn on a United States bank, you agree to pay any
collection or conversion fees assessed to us by third parties.
We may accept payments which are marked “payment in full”
or with similar markings without losing our right to receive
payment in full. Partial payments offered in full satisfaction
of a disputed amount must be sent to the address for notice
of billing errors shown on your billing statement. We reserve
our rights as to all such payments.
(B) Minimum Payment Calculation: The amount of your minimum
payment will be indicated on your billing statement and
calculated as shown on the Summary of Credit Terms.
(C) Application of Payments: We may apply your payments in
the order we choose from time to time. We must, however,
comply with applicable law governing application of your
payments. Currently, this means that if you make a payment
in excess of the required minimum payment, we must apply
the excess amount first to your Balance Category with the
highest Annual Percentage Rate. Any remaining portion of
that excess amount must be applied to your other Balance
Categories in descending order based on their applicable
Annual Percentage Rates. Until we determine a payment is
unlikely to be returned for insufficient funds or for some other
reason, your available credit may not reflect the payment.
(D) Application of Credits: We will apply credits to your account
as promptly as required by law. Credits may be applied to the
Balance Categories that we choose, even if those Balance
Categories are different than the Balance Categories of
the transactions giving rise to the credits. A credit may be
applied on the date of the credit transaction. In some cases,
however, credits may not be posted to your account until a
billing cycle occurring after the date of the credit transaction.
4. How certain rates are calculated and may change
This section provides basic information about how we calculate
certain interest rates that may apply to your account and the
circumstances that can trigger increases in APRs.

VARIABLE RATE INFORMATION: If any Annual Percentage Rate
is variable, information regarding the variable rate is provided on
the Summary of Credit Terms. The information includes: (i) the
fact that the rate may increase; (ii) how the rate is determined,
including the margin and index; (iii) the circumstances under
which the rate may increase; (iv) the frequency with which the
rate may increase; (v) any limitation on the amount the rate may
change; and (vi) the effect(s) of an increase. Please consult the
Summary of Credit Terms, in conjunction with this agreement, for
important information about the rates applicable to your account.
RATE INCREASES DUE TO TRIGGERING EVENTS: We may
increase any or all of your Introductory or Special Offer Annual
Percentage Rates, as permitted by law, if one of these “Triggering
Events” occurs: (1) you fail to make a minimum payment to us
when due; (2) you make a transaction which causes your
balance to exceed your credit limit with us; or (3) you make a
payment to us that is dishonored, returned unpaid, or reversed
by the paying institution for any reason. If we increase your
rates due to a Triggering Event, we may determine the amount
of the increase based on how you have handled your account
with us and current and historical information regarding your
credit in general. We will give you a notice of the increase. The
highest rate that may apply because of a Triggering Event will
be the Penalty Rate(s) shown on the Summary of Credit Terms.
Increased rates will not apply to balances that you incur prior
to or within 14 days after we provide the notice of increase.
Increased rates due to Triggering Events may not occur prior
to the first anniversary of opening your account. Rate increases
may remain in effect indefinitely.
RATE INCREASES IF YOU ARE 60 DAYS LATE: If we do not
receive your required minimum payment within 60 days after
its due date and you have missed two consecutive minimum
payments, then this will be a Triggering Event and the rules in
the preceding paragraph apply. However, they are modified as
follows: (1) increased rates may apply to balances incurred prior
to and after the notice of increase; (2) increased rates may apply
before the first anniversary of opening your account; and (3)
increased rates will cease to apply if we receive six consecutive
monthly minimum payments on or before their payment due
dates, beginning with the first payment due date following the
effective date of the increase. When an increased rate ceases
to apply pursuant to the preceding sentence, the rate in effect
before the increase will again apply.
5. How we calculate interest charges and the balances
subject to interest
This section helps explains how we determine the amount of your
interest charges (i.e., periodic rate finance charges) for different
account transactions. It also explains how you can avoid or
reduce these interest charges. This section also explains how we
determine the balances of your account that will be subject to
interest charges at the end of each billing cycle.

ACCRUAL OF INTEREST: Except as provided in “Grace Period”
below, we will charge you interest on each of the Balance
Categories from the date of each transaction or the first day
of the billing cycle in which the transaction is added to your
account, whichever is later.
GRACE PERIOD: If (1) you pay your New Balance in full, as
shown on your current billing statement, on or before the due
date (which will be at least twenty-one (21) days from the closing
date of the billing cycle) and (2) we received payment in full of
your New Balance indicated on your previous billing statement
by its due date or that New Balance was zero or a credit, interest
charges will not be assessed on Purchases shown on your
next billing statement. Payment in full is generally required to
obtain the benefit of the grace period. We will, however, give
you the benefit of the grace period for partial payments to
the extent required by law (please be aware, however, that this
requirement only exists in limited circumstances). The grace
period applies only to Purchases and if notified, Special Offers.
It does not apply to Balance Transfers or Cash Advances or
Overdraft Advances. If you choose to transfer an existing
balance from another credit card, the grace period on new
purchases is unavailable until the balance transfer is paid in full.
INTEREST CHARGES: Interest charges will be calculated
using daily periodic rates which correspond to certain Annual
Percentage Rates. These rates may be different for Purchases,
Balance Transfers, Cash Advances, Overdraft Advances, and
Special Offers.
(A) If your account was opened with an Introductory Rate(s), the
rate(s) for your account will be at the Introductory Rate(s)
shown on the Summary of Credit Terms. The Introductory
Rate(s) will continue in effect as shown on the Summary of
Credit Terms.
(B) After the Introductory Rate(s) expire (or if your account does
not have an Introductory Rate), the Preferred Rate(s) for your
account will be the rate(s) shown on the Summary of Credit
Terms. Those Preferred Rates may be variable.
INTEREST CHARGES AND BALANCE CALCULATIONS: We
use the Average Daily Balance (including new purchases)
method to compute a portion of the interest charges on your
account. We calculate interest charges separately for each
Balance Category.
(A) To compute Billed Interest Charges:
(1) For each Balance Category, we multiply your Daily Balance
(see below) by the applicable daily periodic rate (1/365th of
the applicable APR) for each day of the billing cycle; then
(2) W
 e add together all of the products calculated in (1) above.
(B) To compute the Daily Balance for each Balance Category:
We figure the interest charge on your account by applying
the periodic rate to the “average daily balance” of your
account. To get the “average daily balance” we take the
beginning balance of your account each day, add any
new transactions, and subtract any payments or credits.
This gives us the daily balance. Then, we add up all the

daily balances for the billing cycle and divide the total by
the number of days in the billing cycle. This gives us the
“average daily balance.”
For purposes of these computations, we may delay adding
some fees to your Daily Balance (for example, some fees may
not be added to your Daily Balance until the billing cycle after
they are imposed). We may also subtract some payments or
portions of some payments from your Daily Balance earlier than
when they were actually received (for example, for grace period
purposes, portions of some payments received in one billing
cycle may be considered applied to your Purchase Balance
Category or Special Offer Balance Category, as applicable, at
the end of the prior billing cycle).
We add the amount calculated in accordance with (A) (1) above
to the Daily Balance and this amount becomes the Beginning
Balance for the next day. On your billing statement, we will
calculate an Average Daily Balance for each Balance Category
by adding all your Daily Balances for that Balance Category
and dividing that amount by the number of days in the billing
cycle. If you multiply the Average Daily Balance for a Balance
Category by its daily periodic rate and multiply the result by
the number of days in the billing cycle, the total will equal the
Billed Periodic Rate Finance Charges for that Balance Category,
except for minor variations due to rounding.
Billed interest charges shall appear on your statement labeled
as “Interest Charge” for each Balance Category. The Interest
Charges for each Balance Category shall be totaled on your
statement and listed as the “Total Interest”. Cash advance,
balance transfer, and foreign transaction fees, if any, will be
listed under the “Fees” heading on your billing statement and
all fees will be totaled to determine “Total Fees”. This Agreement
provides for daily compounding of finance charges and fees.
MINIMUM INTEREST CHARGE: If interest charges are billed in
any billing cycle, the minimum billed interest charge will be as
shown on the Summary of Credit Terms. We may allocate your
minimum billed interest charge among your various Balance
Categories in the manner that we select from time to time. The
minimum billed interest charge will appear on your statement
as the “Minimum Interest Charge” under the Fees heading.
6. How we determine certain account fees and additional
information on certain transactions
This section describes the account maintenance fees, transaction
fees and other fees that may apply to your account as well as
additional information on various types of transactions.
ANNUAL FEE: If your account has an annual membership fee, it
is shown on the accompanying Summary of Credit Terms and
will be charged to your account as a Purchase. If no annual fee
is shown, then your account has no annual fee.
OTHER FEES (such as late payment and service fees): We may
charge additional fees as in effect from time to time as referenced
below. The amount charged for these fees is shown in the
Summary of Credit Terms unless otherwise indicated below.

Late Fee. For each minimum payment which is not received
by the payment due date for any reason, we may charge you
a late fee. A payment is considered not to have been received
by the due date if a payment received before the due date is
dishonored, returned unpaid, or reversed for any reason, and
you do not subsequently make a good payment before the due
date.
Returned Payment Fee. A returned payment fee may be
assessed as indicated on the Summary of Credit Terms
for: (i) any payment on your account which is dishonored
or returned unpaid for any reason (including any payment
returned because it is not signed, authorized or cannot be
processed for any reason); or (ii) reversed by the paying
financial institution for any reason; or (ii) any Balance Transfer,
Cash Advance, Special Offer check or similar instrument
(including electronic form or otherwise) that is dishonored by
us for any reason or for which we refuse to pay.
Stop Payment Fee. A Stop Payment Fee may be assessed
as indicated on the Summary of Credit Terms for any stop
payment order you request us to make. Stop Payment Fees
will be treated as purchases and added to your Purchases
Balance.
Copy Fees and Additional/Replacement Card Fees. We may
charge you a fee for (i) each sales draft copy you request
(unless the request is related to an actual billing error); (ii) each
additional or replacement card requested; and (iii) for each
copy of a billing statement that you request. The amounts of
these fees are set forth in the Summary of Credit Terms. Copy
Fees and Additional/Replacement Card Fees will be treated
as purchases and will be added to your Purchases Balance.
Expedited Card Fees. We may charge you a fee for an
expedited delivery of additional or replacement cards, as
specified in the Summary of Credit Terms. Expedited Card
Fees will be treated as purchases and will be added to your
Purchases Balance.
Expedited Payment Fee. Subject to applicable law, we
may charge you a fee for making an expedited payment to
us which requires assistance from one of our customer
service representatives. The amount of this fee is set forth
in the Summary of Credit Terms. Expedited Payment Fees
will be treated as purchases and will be added to your
Purchases Balance.
ATM Surcharge. For all ATM transactions, a surcharge may
be imposed by the ATM operator. This surcharge is imposed
by third parties and will be charged to your account. This
fee is not listed on the Summary of Credit Terms but will be
disclosed to you by the ATM operator when conducting the
ATM transaction.
BALANCE TRANSFERS: We may permit you to transfer
balances from credit card accounts or other types of accounts
with other financial institutions to your account up to the
amount of your credit limit we make available for balance
transfers. If you request a balance transfer that exceeds the
amount we make available for balance transfers, then we may

either process a transfer for less than you requested or we may
decline the entire request. Requests to transfer any balance
you owe from any other Union Bank account or any of your
accounts with any of our related companies is subject to our
approval. We will charge you a Balance Transfer Fee or any
balance transfer as shown on the accompanying Summary
of Credit Terms. No grace period will apply when calculating
finance charges for a balance transfer. When you transfer a
balance from another account, we send a payment in the
amount of the balance transfer to the other financial institution.
We have no control over, and are not responsible for, how and
when the other financial institution applies the payment. You
are responsible for verifying that the other financial institution
applies the balance transfer payment in accordance with your
other account’s terms. We do not send instructions to the other
financial institution to close your other account. If you want
the other account to be closed, you must do that yourself. You
should not transfer any amount that is in dispute in order to
preserve your dispute rights. You should continue to monitor
the other accounts that you request to transfer balances from
and you should continue to pay the minimum payments due
on those accounts until you receive statements from those
creditors showing that the balances due them have been paid
in full. This might not happen until after the balance transfer
appears on your billing statement from us. You are liable for any
late payments, finance charges or disputed amounts on your
other accounts.
CASH ADVANCE FEE FINANCE CHARGES: A Cash Advance
Fee will be imposed on cash advance transactions as shown
on the Summary of Credit Terms. Cash advance fee finance
charges will be added to your Cash Advances Balance Category.
CASH EQUIVALENT TRANSACTIONS: Cash Equivalent
Transactions will be treated as cash advances and a Cash
Advance Fee (as indicated on the Summary of Credit Terms)
will be assessed for each Cash Equivalent Transaction. Cash
Equivalent Transactions are those transactions performed
using a merchant or service provider that VISA® identifies as a
seller of travelers checks, foreign currency, money orders, wire
transfers, lottery tickets, funds used for wagers or gambling, or
similar products or services. These transactions are also treated
as cash advances for all other purposes on your account. Cash
advance fee finance charges for Cash Equivalent Transactions
will be added to your Cash Advances Balance Category.
OVERDRAFT ADVANCE TRANSACTIONS AND OVERDRAFT
ADVANCE FEE: If you have enrolled in overdraft protection
linked to your Union Bank credit card, you understand and
agree that any day in which transactions are presented for
payment against your linked Union Bank checking account
when there are nonsufficient Available Funds to cover the
transactions, MUFG Union Bank will attempt to advance funds
from your linked Union Bank credit card. Each Business Day
that MUFG Union Bank determines that your eligible Union Bank
checking account is overdrawn by any amount, you authorize

us to make an overdraft advance equal to: (a) $50.00; or (b) the
next highest multiple of $50.00 that will equal or exceed the
Union Bank checking account overdraft, as determined by us.
For example, if we determine that your Union Bank checking
account is overdrawn by $125.00, you understand and agree
that we may automatically make an overdraft advance of
$150.00 from your Union Bank credit card for deposit to your
Union Bank checking account. We will make transfers only once
each Business Day.
We will not authorize transactions requiring real-time
authorization (such as ATM withdrawals, ATM/Debit Card
purchases and cash withdrawals in a MUFG Union Bank branch)
using this service. If you attempt a transaction requiring realtime authorization and there are nonsufficient Available Funds
in your checking account, the transaction will be declined.
Overdraft advances will only be processed if at least one Item
can be covered by the advanced amount. Any negative balance
from a previous Business Day will not trigger an advance unless
another eligible Item is presented for payment, and there is
a sufficient available balance on the credit card account to
cover at least that additional Item. For order of processing
checks and other Items, see our All About Personal Accounts
and Service, Disclosure and Agreement. If you are enrolled in
multiple overdraft protection services with MUFG Union Bank,
MUFG Union Bank will try to cover the overdraft using your other
overdraft protection services in the following order; Deposit
Overdraft Protection, Cash Reserve and then the Union Bank
Credit Card. When enrolling in overdraft protection linked to a
credit card, you will not be covered by the Overdraft Coverage
service, which means that if you do not have sufficient Available
Funds in your linked credit card account to cover all nonsufficient
Available Funds Items, your checking account will be subject to
applicable overdraft or returned Item fees.
An Overdraft Advance Fee will be imposed on overdraft
advance transactions as shown on the Summary of Credit
Terms. Overdraft advances and Overdraft Advance Fees will be
added to your Overdraft Advance Balance Category on your
credit card monthly statement and be charged the Overdraft
Advance Annual Percentage Rate. No grace period will apply
when calculating finance charges for overdraft advances.
If your linked checking account is changed to a closed status
for any reason, MUFG Union Bank may terminate the overdraft
protection link to the credit card account without notice.
FOREIGN TRANSACTION FEE FINANCE CHARGE: A Foreign
Transaction Fee may be assessed on all transactions made
(i) in currencies other than United States Dollars; (ii) with a
foreign merchant (whether in foreign currency or in United
States Dollars); or (iii) outside the United States. The Foreign
Transaction Fee will be equal to a certain percentage of the
amount of each foreign transaction (after conversion to United
States Dollars) as shown on the Summary of Credit Terms.
These fees will be added to the Balance Category that we

select (for example, the Balance Category in which the foreign
transaction is posted).
TRANSACTIONS MADE IN FOREIGN CURRENCIES:
Transactions made in currencies other than United States
Dollars will be converted to United States Dollars under the then
current regulations of VISA®, MasterCard® or the VISA®/PLUS®
ATM Network, or other applicable network. Those regulations
currently provide that the conversion rate may be either (1)
a wholesale market rate or (2) a government-mandated rate.
VISA® and MasterCard® currently use the rate in effect on the
date they process your transaction. The currency conversion
rate in effect on the date your transaction is processed may
differ from the rate in effect on the transaction date or the
posting date. The VISA®/PLUS® ATM Network currently uses the
rate in effect on the transaction date.
7. When we may close or require immediate payment of
your account
This section describes what events can cause us to require
immediate payment of your entire account balance and when
we can terminate or suspend your ability to use the account.
REASONS FOR REQUIRING IMMEDIATE PAYMENT: Subject
to applicable law and any right to cure that you may have under
that law, we may require immediate payment of your entire
account balance if:
(1) you do not make any minimum payment to us when due;
(2) you exceed your credit limit;
(3) you make a payment to us that is dishonored or returned
unpaid, or reversed by the paying financial institution, for any
reason;
(4) you die or become insolvent;
(5) you give us false or misleading information;
(6) a petition is filed by or against you in any bankruptcy,
reorganization, arrangement, insolvency, readjustment of
debt, dissolution or liquidation proceeding;
(7) a receiver, liquidator or trustee is appointed for you or any of
your property, or you make an assignment for the benefit of
creditors;
(8) you are generally not paying or have announced that you will
not pay your debts as they come due;
(9) a breach occurs under any note, loan agreement, or other
obligation for borrowed money to which you are a party;
(10) a material adverse change occurs in your financial or other
condition;
(11) you violate this Agreement or any other agreement you
make with us; OR
(12) if we have reason to doubt your ability to repay us.
Our acceptance of a payment after one or more of the
preceding events does not waive our right to require
immediate payment of your entire account balance.
TERMINATION OR SUSPENSION OF CREDIT PRIVILEGES:
We may at any time, with or without cause and without
advance notice, terminate this Agreement and/or temporarily

or permanently suspend your credit privileges. This includes,
but is not limited to, situations where you have violated
this Agreement or where we have reason to doubt your
creditworthiness (for example, if you pay us with insufficient
funds checks on more than an occasional basis). Your
obligations under this Agreement continue after your rights to
obtain credit have been terminated or suspended.

before we receive it (we need not stop payment on checks or
similar instruments that we issue on your behalf). We may pay
postdated checks or similar instruments (including electronic
form or otherwise) unless you follow the procedure for stop
payments. Checks or similar instruments (including electronic
form or otherwise) that we provide to you may not be used to
make payments on any account you have with us.

8. How account terms may change and certain rights
This section explains how we may change the rates, fees and
other terms of your account and this agreement at any time. We
will give you notice of changes in terms as required by law. This
section also identifies certain rights.

10. How cardmember benefits and reward programs work
This section describes some general terms & conditions relating to
your card benefits and rewards program if enrolled. Please consult
the full rewards program terms and conditions (available on our
web site at unionbank.com/rewardsdetails for more information).

IMPORTANT NOTICE REGARDING CHANGES IN TERMS:
Subject to applicable law, we may unilaterally change the Annual
Percentage Rates, fees and other terms of this Agreement at
any time, including after your account is closed (and regardless
of the reason you or we closed the account). This includes
modifications, deletions and the addition of new provisions,
including non-financial provisions (for example, we may add
provisions relating to our enforcement rights or the resolution
of claims and disputes). If we make changes, we will send you
all notices required by law. Unless we explain otherwise in a
change in terms notice you receive, the following rules will
apply: (1) changes will be automatically effective on the date we
specify and without the necessity of any further assent on your
part; and (2) use of your account is not necessary for a change
in terms to be effective.

CARDMEMBER BENEFITS AND REWARDS: Cardmember
benefits and rewards are subject to change or termination
without notice. Cardmember benefits and rewards may be
provided by third parties; we are not liable for such benefits or
rewards or for the actions or omissions of those third parties.

OUR RIGHTS: Our failure to exercise, or our delay in exercising,
any of our rights under the Agreement for any reason will not
mean we are unable to exercise those rights later. We may,
from time to time on a consistent or inconsistent basis, take
(or refrain from taking) certain actions that benefit you but
that are not required by this Agreement or applicable law. Any
such course of dealing or course of performance shall not be
considered to add to our legal obligations to you under this
Agreement. We may discontinue any such course of dealing or
course of performance at any time without prior written notice.
9. How to use your account without using your credit card
Your account is more than the plastic card itself. There are other
ways to access your credit line including by check or other credit
access device. This section identifies how such checks and
devices will be treated and different APRs that may apply other
than your normal purchase rate.
CHECKS THAT ACCESS YOUR ACCOUNT: Any checks or
similar instruments (including electronic form or otherwise)
that we provide to you or issue on your behalf will be treated
as cash advance transactions, unless we indicate otherwise
(for example, we may indicate that certain Special Offer
checks used to make balance transfers will be treated as
Purchases). To stop payment on a check or similar instrument
(including electronic form or otherwise), you must notify us
of the number and amount of the check or similar instrument

11. How we communicate with you and share information
with credit bureaus
This section explains how we may retain your phone numbers
or addresses and use them to contact you later if we need to
reach you. It also explains how we report information about your
account to credit reporting agencies and reminds you to notify
us of a change of address 10 days before you move.
COMMUNICATIONS WITH YOU AND OTHERS: We may call
(using live operators, automatic dialing devices, or recorded
messages) or e-mail you at home or work and those calls or
e-mails will not be considered unsolicited. If you provided a
cell phone number to us on the application for this account,
you agreed that we may contact you (including for collection
purposes) at that cell phone number. Subject to applicable law,
we may monitor or record any calls we make or receive. If you
provide us with an e-mail address, either on the application or
to a representative or if you send us an e-mail, you agree that
we may contact you (including for collection purposes) at that
e-mail address. We may report information about your account
to credit bureaus. Late payments, missed payments, or other
defaults on your account may be reflected in your credit report.
We may make inquiries of third parties in connection with
maintaining and collecting your account, and you authorize
such third parties to release information about you to us. You
agree to notify us of any change in your mailing address at least
ten (10) days before such change. If mailed, notices to you shall
be considered given when we include the notice on or with
your billing statement or when we deposit the notice in the U.S.
mail addressed to the most recent address we have for you.
12. Transferring your account and laws that govern your
account with us
This section explains how we may transfer your account and our
rights to other parties. It also explains that you may not transfer
your rights or duties under the agreement to another person. It also
identifies the laws that govern your account and this agreement.

TRANSFERS: We may transfer all or part of your account
balance, along with our rights under this Agreement, to another
person or entity. That person or entity will then be entitled to
enforce our rights under this Agreement. You may not transfer
your rights or obligations under this Agreement.
GOVERNING LAW: This Agreement (including restrictions on
interest) shall be governed by FEDERAL law and to the extent
state law applies, Washington law, regardless of conflict of law
principles. If there is any conflict between any of the terms
and conditions of this Agreement and applicable law, this
Agreement will be considered changed to the extent necessary
to comply with applicable law. Where this Agreement provides
that we may exercise discretion in taking certain actions, those
provisions are not intended to authorize us to take actions that
are contrary to applicable law. We have additional obligations
under applicable law. We are not excused from complying
with those obligations simply because they are not detailed in
this Agreement. You agree that all terms of this Agreement are
material to the determination of interest.
13. Scope of our agreement with you
This section helps explain the scope of our agreement with you
and how it will be applied and interpreted.
ENTIRE AGREEMENT AND SEVERABILITY: This Agreement, as
modified by any change in terms we may provide, supersedes
any prior communications between you and us. Any invalid
or unenforceable provision of this Agreement will not affect
whether any other provision is valid or enforceable.
SECTION HEADINGS AND SUMMARIES: The section headings
and summaries provided in this Agreement are provided only
for your and our convenience. The section headings and
summaries do not define or describe the entire scope or intent
of any portion of this Agreement.
14. RESOLUTION OF CLAIMS BY ARBITRATION
PLEASE READ THIS PROVISION CAREFULLY. UNDER THIS
PROVISION, YOU WAIVE YOUR RIGHTS TO TRY ANY
CLAIM IN COURT BEFORE A JUDGE OR JURY AND
TO BRING OR PARTICIPATE IN ANY CLASS OR OTHER
REPRESENTATIVE ACTION.
The following provision applies to any claim, cause of action,
proceeding, or other dispute between us concerning this
Agreement (each, a “Claim”), including all questions of law or
fact relating thereto:
Option to Arbitrate. Either you or we may elect in writing,
without the consent of the other, to arbitrate all Claims covered
by this provision. This provision will be broadly interpreted in
accordance with the following paragraphs.
Claims Covered. Claims subject to arbitration hereunder shall
include all of the following:
• Claims arising out of or related to this Agreement, or any prior
or later versions of this Agreement

• Claims that relate to the construction, scope, applicability, or
enforceability of this provision
• Claims that arose before we entered into this Agreement
or any other agreement or relationship between us that is
governed by this Agreement (including, but not limited to,
Claims relating to advertising)
• Claims that may arise after the termination of this Agreement
or any other agreement or relationship between us that is
governed by this Agreement
• Claims asserted by or against your or our respective
subsidiaries, affiliates, agents, employees, predecessors-ininterest, personal representatives, heirs, and/or successors
and assigns
Claims Not Covered. Claims subject to arbitration hereunder
shall not include the following:
• Any Claim made in any proceeding that you commence in
small claims court, so long as it remains in that court
• Any Claim set forth in any complaint or other communication
that you may file with or send to a federal, state, or local
administrative agency, such as the Office of the Comptroller
of the Currency or the Consumer Financial Protection Bureau,
unless such agency asserts jurisdiction over the claim, and
independently determines the rights of the parties
• Any Claim arising out of the exercise by either of us of any
self-help remedy, including any offset, account hold or freeze,
or repossession
• Any Claim arising out of or related to an obligation secured by
an interest in real property
Arbitration Procedure. You and we agree to the following
procedures in arbitrating any covered Claim:
• The party initiating arbitration may choose between arbitration
administered by one of the following:
– The American Arbitration Administration (“AAA”) under the
AAA’s Commercial Arbitration Rules and the Supplementary
Procedures for Consumer Related Disputes, except as
modified by this Agreement. AAA’s rules may be obtained
from www.adr.org or 1-800-778-7879 (toll free).
– JAMS/Endispute (“JAMS”) under JAMS’ Comprehensive
Arbitration Rules & Procedures or Streamlined Arbitration Rules
& Procedures, including JAMS’ Consumer Minimum Standards,
except as modified by this Agreement. JAMS’ Class Action
Procedures shall not apply. JAMS’ rules may be obtained from
www.jamsadr.com or 1-800-352-5267 (toll free).
• Except in the case of a new arbitration by a 3-arbitrator panel, as
provided for below, the arbitration shall be decided by a single
neutral arbitrator selected in accordance with AAA’s or JAMS’
rules, as applicable.
• The arbitrator will take reasonable steps to protect customer
account information and other confidential information.
• The arbitrator will decide the dispute in accordance with the
terms of our agreements and applicable substantive law,
including statutes of limitation and evidentiary privileges.
The arbitrator may award damages or other relief (including

•

•

•

•

•

injunctive relief) available to the individual claimant under
applicable law.
If the arbitrator’s award for a claimant is $0 or against the
non-claimant is greater than $100,000 or includes an award
of injunctive relief against either party, then that party may
request a new arbitration by a 3-arbitrator panel in accordance
with AAA’s or JAMS’ rules, in which case each reference in this
provision to the arbitrator shall mean such 3-arbitrator panel.
Arbitration shall be commenced in the state in which your
account is located. Any arbitration hearing shall be conducted
in the county in which your account is located, unless you and
we agree to another location.
If all Claims are for $10,000 or less, you may choose whether
the arbitration will be conducted solely on the basis of
documents submitted to the arbitrator, through a telephonic
hearing, or by an in-person hearing in accordance with AAA’s
or JAMS’ rules.
YOU AND WE AGREE THAT ANY CLAIM MAY BE BROUGHT
ONLY IN AN INDIVIDUAL CAPACITY, AND NOT AS A
REPRESENTATIVE OR MEMBER IN ANY CLASS OR OTHER
REPRESENTATIVE ACTION. The arbitrator may not consolidate
more than 1 person’s Claims, and may not otherwise preside
over any form of a class or other representative action. If
this specific paragraph is determined by the arbitrator to be
unenforceable, then this entire provision shall be null and
void, and all Claims shall be determined in accordance with
the provision of this Agreement entitled Resolution of NonArbitrable Claims.
At your or our request, the arbitrator will issue a reasoned
written decision sufficient to explain the essential findings
and conclusions on which the award is based.

• The arbitrator’s award shall be final and binding, subject to
judicial review only to the extent allowed under the Federal
Arbitration Act. You or we may seek to have the award
vacated or confirmed and entered as a judgment in any
court having jurisdiction.
Arbitration Costs. Unless the applicable arbitration rules are
more favorable to you, we will advance (i) all arbitration costs
in an arbitration that we commence, and (ii) the first $2,500
in arbitration filing, administration, and arbitrator’s fees in an
arbitration that you commence. To the extent allowed by
applicable law and our agreements, the arbitrator may award
arbitration costs and attorneys’ fees to the prevailing party.
Applicable Law; Severance. This Agreement evidences
transactions in interstate commerce. The Federal Arbitration
Act governs the interpretation and enforcement of this provision.
Except as this provision otherwise provides, if any part of this
provision is deemed to be invalid or unenforceable, that part
will be severed from the remainder of this provision and the
remainder of this provision will be enforced.

Resolution of Non-Arbitrable Claims. If your Agreement is
governed by California law, the following applies: All Claims that
are not arbitrable under this Agreement, including all questions
of law or fact relating thereto, shall at the written request of
any party, be determined by judicial reference pursuant to the
California Code of Civil Procedure. The parties acknowledge
that in such event, a jury will not decide such Claims.
If your Agreement is governed by a state other than California,
the following applies: To the maximum extent permitted by
law, you and the Bank intentionally and deliberately waive the
right to a trial by jury to resolve all Claims that are not arbitrable
under this Agreement, including all questions of law or fact
relating thereto.
If the waiver of jury trial set forth above is not enforceable for
any reason: Then the parties hereto agree that all Claims that
are not arbitrable under this Agreement, including all questions
of law or fact relating thereto, shall, at the written request of
any party, be determined by judicial reference pursuant to the
applicable state statutes. The parties acknowledge that in such
event, a jury will not decide such Claims. The parties shall select
a single neutral referee, who shall be a retired state or federal
judge (the “Referee”). In the event that the parties cannot agree
upon a Referee, the court shall appoint the Referee. The Referee
shall report a statement of decision to the court. Nothing in
this provision shall limit the right of any party at any time to
exercise self-help remedies, foreclose against collateral, or obtain
provisional remedies. The parties shall bear the fees and expenses
of the Referee equally, unless the Referee orders otherwise. The
Referee shall also determine all issues relating to the applicability,
interpretation, and enforceability of this provision.
15. Your billing rights as a cardmember
This section describes specific legal rights you have as a
cardmember. It explains how you may dispute an item on
your statement, what you may do if you are dissatisfied with a
purchase from a merchant and the limits on your liability for
unauthorized transactions.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
Union Bank
P.O. Box 2988
Omaha, NE 68103-2988
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you
as delinquent, and we must let those organizations know when
the matter has been settled between us.

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
(1) The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
(2) You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Union Bank
P.O. Box 2988
Omaha, NE 68103-2988
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
16. Liability for unauthorized use
If you notice the loss or theft of your credit card or a possible
unauthorized use of your card, you should call us at 844-8605465. You will not be liable for any unauthorized use that occurs
after you notify us. You may, however, be liable for unauthorized
use that occurs before your notice to us. In any case, your
liability will not exceed $50.00.

If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.

©2016 MUFG Union Bank, N.A. All rights reserved. Member FDIC.
Union Bank is a registered trademark and brand name of MUFG Union Bank, N.A. unionbank.com

8913123-01 (08/16)

M-117166

